  Department of Health and Human Services
          OFFICE OF
     INSPECTOR GENERAL




NATIONAL    MARROW      DONOR PROGRAM

    EFFECTIVENESS   IN RETAINING DONORS




                         # OEI-01-95-O0121
                        OFFICE      OF INSPECTOR             GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, evaluations, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and managementproblems and recommends
legislative, regulatory, and operational approaches to correct them.




                OFFICE      OF EVALUATION              AND INSPECTIONS

The OIG’SOffice of Evaluation and Inspections (OEI) conducts short-term management and

program evaluations (called inspections)that focus on issues of concern to the Department, the

Congress, and the public. The inspection reports provide findings and recommendationson the

ei%ciency,vulnerability, and effectivenessof departmentalprograms.





OEI’SBoston Regional Office prepared this report under the direction of Mark R. Yessian, Ph.D.,

Regional Inspector General. Principal OEI staff included:


Boston Refion                                                  Headmuu-ters

Russell W. Hereford, Ph.D., Project Leader                     Alan Levine, Program Specialist

Elizabeth Robboy, Program Analyst



To obtain a copy of this report, contact the Boston Regional Office by telephone at

(617) 565-1050 or by fax at (617) 565-3751.

  Department of Health and Human Services
          OFFICE OF
     INSPECTOR GENERAL




NATIONAL    MARROW        DONOR PROGRAM

     EFFECTIVENESS   IN RETAINING      DONORS




                          # 0EI-01-95-O0121
             EXECUTIVE                           SUMMARY

PURPOSE

To assess the effectiveness of the National Marrow Donor Program in retaining donors for
bone marrow transplants between unrelated volunteer individuals.

BACKGROUND

Bone marrow transplantation is a treatment for blood borne diseases such as leukemia and
lymphoma. For a transplant to be successful, the patient’s and donor’s blood cell
proteins, or human leukocyte antigens (HLA), must match as closely as possible.

The Natioml Marrow Donor Program (NMDP)is a nonprofit organization based in
Mimeapolis, Minnesota, that finds matching donors for patients seeking a transplant. It
operates the congressionally authorized marrow donor registry under contract with the
Health Resources and Services Administration (HRSA). The NMDPaccredits donor centers
that recruit volunteers to join the registry, which contains almost 1.5 million potential
donors in 97 domestic donor centers.

Volunteers who join the registry have their blood typed for the HLA-Aand -B antigens. If
a patient seeking a transplant matches with a donor’s antigens, the donor center contacts
that donor for first level followup testing to type the donor’s HLA-DRantigens. If these
antigens match, the donor may be called for second level confiiatory    testing, which may
lead to marrow domtion and transplantation.

Some potential donors, however, do not proceed to followup testing. The term retention
rate refers to donor centers’ success in keeping donors when they are called for followup
testing.

This report is based on data maintained by NMDP;a mail survey of 88 of the 97 domestic
donor centers; and site visits to 9 donor centers across the country.

FINDINGS

The overall donor retention rate has remained about the same over the past 3 years.
While the retention rate has improved for first level followup testing, it has declined
for second level confirmatory testing.

       Donor retention at first level testing improved to 73 percent for the year ending
       September 1995, up from 66 percent for the year ending September 1993.

       However, donor retention at confhrnatory testing declined to 75 percent for the
       year ending September 1995, down from 81 percent for the year ending September
       1993.


                                             i
Retention rates among donors from racial and ethnic minority groups lag behind
those for whites.

       At first level testing, tieretention rate forminority donors fiproved to66 percent
       for the year ending September 1995, up from 55 percent for the year ending
       September 1993. In comparison, the retention rate among white donors grew from
       71 percent to 76 percent.

       However, retention of minority donors at confkmatory testing declined to 60
       percent fortheyear ending September 1995, down from 67percent for the year
       ending September 1993, while it fell from 83 to 81 percent among white donors.

Even though the decrease in donor retention rates at confirmatory testing is small, it
still raises some concerns.

The NMDPand donor centers have gained substantial experience in donor registration and
education, adopted new technologies for locating donors, and developed continuous
process improvement indicators. We had expected ongoing improvement in retention.
Although improvement was evident at frost level followup testing, we found that this was
not the case at confiiatory testing. Our review identified three factors that may explain
this trend:

       Luck of direct donor commitment at the jirst level followup stage. Some donors

       were typed for their HLA-DRantigens at initial registration. Because only verbal

       permission is required, these donors do not need to be tested again until the

       confhnatory testing stage. All new minority donors are typed at registration to

       more readily identify matches. This front end typing may provide one important

       explanation for the greater decrease in their retention rate at confirmatory testing.


       Potential conj-lict between a rapidly growing re~”s~ and donor education. Some

       donor centers may be emphasizing increases in the number of donors on their list,

       rather than attracting donors who will come forward when called. Some centers

       may not be doing an effective job of educating donors at initial recruitment about

       what will be required of them in the event of a match.


       No awareness of decline in confirmatory testing retention rate. Some donor

       centers may not recognize the decline in donor retention rates at confiiatory

       testing. Even though donor retention is declining at this stage, donor centers

       responding to our survey cited obstacles to retention less frequently at contlrmatory

       testing than they did at first level testing.


We raise concerns about the decline in retention at confhmatory testing for two reasons:

       Pti”ent expectations are high at confirmatory testing. A request for confiiatory
       testing occurs when a patient awaiting a transplant knows that a preliminary



                                              ii
       potential donor match has been identified. Failing to retain donors at this stage
       means that the patient’s hopes for a transplant may have been raised unrealistically.

       Losing donors at confirmatory testing is costly for pti”ents awaiting transplant.
       When a patient requests that a potential donor be tested for HLA-DRantigens, that
       patient is billed an average of $264. The patient must pay for that test, even if the
       donor does not come forward at confkrnatory testing.

RECOMMENDATIONS

The Health Resources and Services Administration shouId specify, either upon issuing
the forthcoming contract or through a future modification of that contract, the
overall retention rate to be achieved by the registry. The current contract specifies
goals for recruitment of donors and minority donors, as well as for the number of
transplants. However, the contract does not contain goals for retention of donors, the
important middle step in that process. We urge HRSAto speci~ the target retention rate
within the fwst year of the new contract.

To the extent that resources are available, the Health Resources and Services
Administration, working with the National Marrow Donor Program, should support
demonstration projects that test alternative strategies for retaining donors. We urge
that particular attention be paid to demonstrations that seek to increase the retention rate
among donors from racial and ethnic minority groups.

The National Marrow Donor Program should work with donor centers to develop and
implement methods for improving retention at both the first attempt and subsequent
attempts to contact donors. We hope that improving retention among donors from racial
and ethnic minority groups will be a focus of these efforts. We encourage NMDPalso to
put in place plans for evaluating the success of these methods and a strategy for
disseminating successful methods to donor centers. Options that might be used to reach
that goal include:

       Specifying a retention rate in its operating agreement with each donor center.
       Augmenting performance indicators to emphasize continuous improvement in donor
              centers’ performance over time.
       Enhancing donor education at initial recruitment.
       Emphasizing to donor centers the need for fill education of donors when
              contacting them for fust level followup testing.
       Working with HRSAto devise a strategy for improving publicity around the need
              for retention and donor maintenance.




                                              .. .
                                              111
COMMENTS ON THE DRAFT REPORT


HRSAand the Assistant Secretary for Health (ASH)provided comments on our draft report,

as did NMDP.


The HRSAand NMDPquestion why we compared changes at first level followup (DR

typing) and second level confkmatory (CT) testing, rather than at first attempt and

subsequent attempts to contact donors. We agree that it makes sense to think in terms of

first attempt at contact and subsequent attempts, as the NMDPand HRSAsuggest.

However, because NMDPreports data in terms of first level followup testing and

confirmatory testing, we continue to use those terms in our analysis. Nevertheless, we

have changed our recommendations to encourage overall retention, at both first and

subsequent contact attempts.


HRSAagrees with the substance of our recommendation that the contract should specify the

retention rate to be achieved, but the agency raises concerns that implementing these

recommendations will take longer than we recommended in our draft report. We agree

and have changed our recommendation to specify that the appropriate retention rate be

implemented through a contract modification, rather than prior to issuing the new

contract. We urge that these changes be implemented within the first year of the new

contract.


HRSAand NMDPsupport our recommendation to support demonstration projects that test

alternative strategies for retaining donors. We agree that such projects should contain an

evaluation component to assess the feasibility of these strategies for broader use. We also

urge that these projects pay attention to overcoming language barriers, as recommended

by ASH.





                                             iv
                     TABLE                 OF         CONTENTS

                                                                                                      PAGE

EXECUTIVE SUMMARY


INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


FINDINGS


 .Initial   andconllrmatory      testing rates      . . . . . . . . . . . . . . . . . . . . . . . . . ...4


 .Retentionrates      among minority donors           . . . . . . . . . . . . . . . . . . . . . . . . ...9


 �   Concerns about decline in retention at confknatorytesting                . . . . . . . . . . . . . . 10


RECOMMENDATIONS                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


COMMENTS ON T~D-REPORT                                  . . . . . . . . . . . . . . . . . . . . . . ...15


APPENDICES


A: Changes indonor retention rates.              . . . . . . . . . . . . . . . . . . . . . . . . . . ..   A-l

B: Textofcomments         onthedraftrepofi         . . . . . . . . . . . . . . . . . . . . . . . . . . .. B-l

C: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. C-1

                          INTRODUCTION

PURPOSE:

To assess the effectiveness of the Natioml Marrow Donor Program in retaining donors for
bone marrow transplants between unrelated volunteer individuals.

BACKGROUND:

Bone Marrow Transplantation

Bone marrow transplantation is a treatment for blood borne diseases such as leukemia and
lymphoma. About 16,000 people are diagnosed each year with fatal blood diseases.l
Many could benefit from a bone marrow transplant, a procedure in which the patient’s

diseased bone marrow is destroyed and marrow from a healthy donor is infused into the

patient’s blood stream. Bone marrow produces platelets, red blood cells, and white blood

cells, the agents of the body’s immune system. For a bone marrow transplant to be

successful, the patient’s and donor’s antigens must match as closely as possible. About

30 percent of the time the patient finds a sibling with matching antigens. In the other

70 percent of cases the patient must seek an unrelated donor.


Three pairs of blood cell proteins, known as the Human Leukocyte Antigen (HLA)-A,

-B and -DR, are important in determining whether a match will be successful. One antigen

in each pair is inherited from an individual’s mother, the other from the father. Because

there are numerous antigens at each HLA-A, -B, -DR locus, more than 600 million

combinations are theoretically possible.2


The National Marrow Donor Program

The National Marrow Donor Program (NMDP)is a nonprofit organization based in
Minneapolis, Minnesota. The NMDPoperates the congressiomlly authorized marrow
donor registry under contract with the Health Resources and Services Administration
(HRSA). The contract is funded at $40,471,000, from July 1994 through April 1997.

The NMDPbegan operations in September 1987 as a non-profit organization funded
through a contract from Office of Naval Research. The NMDPwas created through a
cooperative effort of the American Association of Blood Banks, American Red Cross, and
Council of Community Blood Centers. The NMDPbegan operations with 10 transplant
centers, 49 donor centers and 8,000 donors listed on the registry. As bone marrow
transplantation came to be seen as viable technique, the U.S. Navy recognized that it was
inappropriate for the military to maintain a civilian registry. In 1989, responsibility for
the contract was transferred to the National Heart, Lung, and Blood Institute in the
National Institutes of Health. Contract oversight for the NMDPwas again transferred in
1994, this time to HRSAin recognition that NMDPwas a service delivery program, rather
than a basic research initiative.


                                             1
The major functions of the registry are to: (1) “establish a system for finding marrow
donors suitably matched to unrelated recipients for bone marrow transplantation;”      (2)
“recruit potential donors;” and  (3) “increase the representation of individuals from racial
and ethnic minority groups . . . in order to enable an individual in a minority group, to
the extent practicable, to have a comparable chance of finding a suitable unrelated donor
as would an individual not in a minority group. ” In addition, the statute calls for a system
of patient advocacy, support studies and demonstration projects, and the collection and
dissemination of data concerning bone marrow transplantation and collection.3

The NMDPaccredits donor centers that recruit volunteers to join the registry. As of
October 1995, the registry contained almost 1.5 million donors in 97 domestic donor
centers and an additioml 450,000 donors from 6 foreign centers. Eighty-one of the
domestic centers are blood centers, either Red Cross-affiliated or part of community blood
centers; 13 centers are hospital departments, and 3 are free-standing centers. Six of the
domestic centers have more than 50,000 donors on their list; another 35 centers have
between 10,000 and 50,000 donors each. The remaining 56 centers have fewer than
10,000 donors.

The Process of Finding a Donor

Finding a donor for bone marrow transplantation involves many steps. Essentially, these
steps can be viewed as two basic processes. One is the ongoing process of recruiting and
maintaining a pool of potential donors that can be called upon to donate bone marrow.
The second process occurs when a patient initiates a search for an unrelated donor from
within that pool of potential donors.

Potential donors register with the NMDPthrough donor centers or recruitment groups. At
registration, all donors are typed for their HLA-Aand -B antigens.4 Because of the high
costs associated with their typing and the infrequency with which potential donors are
actually called upon to donate, the third pair of antigens, the HLA-DRantigens,
traditionally have not been typed until a later stage at the request of a patient needing a
transplant.5 To protect donors’ privacy, information about their HLAtype and other
demographic and medical information is stored in the NMDP’Scentral computer under a
coded system. Only the donor center knows the potential donor’s identity.

Any physician can initiate a preliminary search on behalf of a patient at no charge. The
preliminary search compares that patient’s HLAantigens to the antigens of donors listed in
the registry. The NMDPfaxes summary information about the number of potential donors
in various match-grade categories to the physician within 24 hours of receiving the
request. A request for further typing of particular donors (a formal search) must be made
through an NMDP-accredited transplant center. The NMDPgenerates a complete list of
each potential donor in order of the best available match.

The patient’s physician at the transplant center selects potential donors from the formal
search report for further compatibility typing. The physician faxes these requests back to
the NMDPcoordinating center, which notifies the appropriate donor center that one of its


                                              2

donors has been selected. Thedonor center contacts that donor for first level followup
testing (DR) to type the donor’s HLA-DRantigens. If these antigens match, the patient may
be called for second level confkmatory testing (CT).

 Eventually, one donor may be identified as the best possible match for the patient.
 Assuming that this donor is still willing to donate marrow, further typing, testing, work-
 up, and informed consent take place. b That donor will go to a collection center, where
 marrow is collected in a surgical procedure. The marrow is then hand delivered to the
 transplant center where it is infused into the patient’s blood system.

 Some potential donors, however, do not proceed to followup testing at DR or CT, even if
 they are a potential match. Yet this is a critical point at which the success of the registry
 and of individual donor centers needs to be assessed. Their effectiveness in finding
 donors at these two points directly impacts the success of the program. We use the term
 retention rate to refer to donor centers’ success in keeping donors when they are called for
 followup testing.

 SCOPE and METHODOLOGY

 This report addresses the domestic donor centers only. The report is one of four
 companion reports addressing the National Marrow Donor Program. The other three
 reports are: National Marrow Donor Program: Progress in Minority Recruitment (OEI-
 01-95-00120); National Marrow Donor Program: Geographic Overlap Among Donor
 Centers (OEI-01-95-00122); and National Marrow Donor Program: Financing Donor
 Centers (OEI-01-95-00123).

 This report utilizes three primary data sources:

- 1) The NMDP’Saggregate statistical data on donor retention at DR typing and CT testing,
  broken down by donor center. We examined data at the following intervals: two
  12-month periods (October 1, 1992 to September 30, 1993 and April 1, 1993 through
  March 31, 1994) and three 6-month periods (April 1, 1994 through September 30, 1994;
  October 1, 1994 through March 31, 1995; and April 1, 1995 through September 30, 1995).

 2)	 A mail survey of the 97 domestic donor centers. We received 88 responses, a
 response rate of 91 percent.

 3) Site visits to donor centers in California, Massachusetts, Minnesota, New Jersey,
 North Carolina, and South Carolina.

 We conducted this study in accordance with the Quali~ Stanabrds for Inspections issued
 by the President’s Council on Integrily and Efficiency.




                                               3

                                     FINDINGS

~E OVERALLDONORRETENTIONRATEI-IASREMAINEDABOUTTHE SAMEOVERTHE
PAST3 YEARS. WHILE THE RETENTIONRATEHASIMPROVEDFOR FIRSTLEVEL
FOLLOWUPTESTING(DR TESTING),IT HASDECLINEDFOR SECONDLEVEL
CONFIRMATORY TESTING.

Figure 1 depicts the trend in donor retention at DR and CT testing at intervals between
September 1993 and September 1995.

                                               FIGURE 1



                   86% Trends in Donor Retention at DR and CT
                                   September1993- September,1995
                   84%
                   82%1                                                            Legend




                   82%
                   80%
                                   March1994               MarctI1995
                         Se@ 993               seA35                    serJ1935




 Source: NMDP,“RegistryStatistics”                                                          Analysisby OIG/OEI

The NMDPidentifies four reasons that an individual may not come forward for further
@Stkgj at either DR or CT:

       - Unable to contact. The donor center was umble to contact the donor. For
             example, the donor may have moved and left no forwarding address.

       - Not Interested.    The donor no longer wishes to be considered as a marrow
              donor.

       - Medical deferment. Because donation requires a surgical procedure, donors with
             certain medical conditions are disqualified.


                                                       4
          Temporarily unavailable. The donor is interested and medically appropriate, but
              his or her schedule is incompatible with the required time frame. For
              example, the donor may be traveling outside the country, or may be umble
              to take time off from work to come to the donor center for testing.

The NMDPremoves donors who are classified as unable to contact or not interested from
the active registry; they will no longer appear as a potential match in the fiture. In some
cases, donors with medical deferments would be removed from the list (e. g., a permanent
condition that renders the person inappropriate for donation), although in other cases
(e.g., pregnancy) the donor might appear for future matches. Those who are temporarily
unavailable remain on the list.

Donor centers and NMDPhave put substantial effort into improving how they maintain
their donor lists. Donor centers use three strategies to help keep their lists up to date:

Annual Newsletter

Eighty-three of 86 centers responding to our survey told us that they use the NMDP
newsletter to update their lists, while 13 of 84 centers told us that they use their own
newsletter, either independently or in conjunction with the NMDPnewsletter. Fifty-one
centers rated the newsletter as their most successful strategy for updating donor lists. The
NMDPworks with an independent mailing house to send an annual newsletter to all
donors. The newsletters use the donor centers’ return addresses, rather than the NMDP’S.
When newsletters are returned as undeliverable, centers flag those donors. At that point
these centers try to contact donors using the contact list that the donor provided when
signing up as a donor. Some centers put substantial effort into this activity as a way of
updating their lists; other centers we spoke with, however, believe that it is more cost
effective to put their resources into tracking down donors once they have been identified
as potential matches, rather than merely keeping lists up to date.

Donor Identification Cards

In our survey, 69 of 86 centers reported that they give donors a donor identification card
prepared by NMDP,while 13 centers issue their own donor identification card. Seven
centers rated the donor identification card as the most successful strategy for updating
donor lists. The donor identification card serves as an ongoing reminder of the
individual’s participation in the program. It also encourages donors to call their center
with a change of address whenever they move.

Tram Union Credit Service

Tram Union, a computerized reporting service, has been available to donor centers for
over 2 years. Three centers rated this as the most effective strategy for updating their
lists. The NMDPencourages donor centers to use this service, which we were told cost
$1.25 per search. The donor center logs into a computer system, enters the donor’s last



                                               5

known address or social security number, and the system tracks that person through credit
card or other activities.7

Donor centers vary in the approaches they take to finding donors and the priority they
give to different methods. One large donor center told us that its first step is to try to
contact the donor by phone; if that approach fails, the center sends a letter to the last
address, followed by a followup letter if no response is received. Finally, they turn to
Trans Union. Another large donor center we met with told us that it first turns to Tram
Union for each DR request that comes in.

  �	   The donor retention rate at DR testing improved to 73 percent for the year ending
       September 1995, up from 66 percent for the year ending September 1993.

The NMDPprocessed 36,012 patient-directed requests for DR testing in the year ending in
September 1995, down from 38,891 in the period two years earlier. (Appendix A
provides detailed data on requests made during these time periods.)

Donor centers’ greatest improvement was in the unable to contact category. This
category accounts for almost half of donors who are lost. Donor centers categorized
12 percent of DR requests as unable to contact during the period ending in September
1995, down from 17 percent in the period 2 years earlier.

The other three categories remained about the same over this period. Temporarily
unavailable improved slightly, from 9 percent to 7 percent of DR requests. Those in the
medically deferred category increased from 2 percent to 3 percent, and those who were
not interested continued at about 6 percent.

We analyzed data for 93 donor centers that operated during this entire period. As Table 1
shows, 62 centers retained a higher percentage of donors at DR request in the year ending
September 30, 1995 over the period two years earlier. In 31 centers the retention rate
was lower.




             II 1995Rateas a Percentof 1993Rate I        Numberof Centers       II
                         120%- 140%                             5
                                                   I
                         110%- 120%                             16
                                                   I

                         100%- 110%                            41
                                                   I
                         90 %- 100%                             28
                                                   I
                          80%-90%                               3
              Source: NMDP,
                          “RegistryStatistics,October1993”and
                       “Retzistrv
                                Statistics.October1995”       Analysisbv OIG/OEI



                                              6

          F	 For the 6 months ending September 30, 1995 donor centers’ success in
             finding donors for DR testing ranged from 48 percent to 100 percent, with a
              median of 82 percent.

          �	   For that 6-month period, 18 of 97 centers retained at least 90 percent of
               those sought for testing; 8 centers retained less than 60 percent.

We examined in detail NMDP’Sdata on retention at DR for requests resolved in the six
month period between April 1 and September 30, 1995. During that period, donor
centers received 17,781 requests for DR typing and filled 12,951 of them (73 percent). It
is important to recognize that requests for DR testing are highly skewed among a few
centers. Thirteen of the 97 centers received more than 50 percent of the total requests for
DR typing and accounted for 48 percent of all donors that were retained during thk
6-month period.




As table 2 shows, the percentage of donors retained at DR is inversely correlated with the
size of the donor center, as measured in the number of DR requests received. The smaller
donor centers tend to retain a higher proportion of their donors than do the large centers.
However, there is substantial variation within each size group, and we were unable to fmd
a definitive explanation for these differences. One possible explamtion is that some large
centers operate in large geographic areas, where distance may exacerbate problems of
actually getting donors to come in for testing.

Other large centers operate in urban areas, where a relatively mobile population may
make it difficult to keep in contact with donors. Yet a third explanation may simply be
that the differences relate to the scale of operations. For example, a donor center with 75
DR requests in a six-month period receives about 3 requests per week; on the other hand,
a center with 450 requests in that period gets 2 to 3 requests per day.



                                              7

  .	   Thedonor retention rate atcTtwting dwlined to75percent for the year
       ending September 1995, down from 81 percent for the year ending September
       1993, in COIItHMt tO hIIl)rOVf3111eIIh in retention at DR.

Themmpprocessed9,454cTr equestsfor the          year ending September 1995, a37 percent

increase over the 6,901 requests in the year ending September 1993. (Appendix A

provides detailed data on requests made during these time periods.)


Donor centers’ greatest difficul~h retitig    donors wash tieunable to contact

category, which accounts for about one-third of the donors lost at CT. Donor centers

categorized 7 percent of CT requests as unable to contact during the period ending in

September 1995, up from 4 percent in the earlier period. The other 3 categories increased

slightly over this period: Temporarily unavai[ab[e grew from 8 percent to 9 percent,

medically deferred from 3 percent to 4 percent, and those who were not interested from

4 percent to 5 percent.


We analyzed data for 92 donor centers that were in operation during this entire period to

identi& how many had improved their performance (Table 3). In contrast to retention at

DR, only 29 centers (32 percent) retained a higher percentage of donors at CT request in

the year ending September 30, 1995 over the period two years earlier; in 63 centers the

retention rate decreased.




               II1995Rateas a Percentof 1993Rate        / Numberof Centers

               II120%- 130%                             14
                                                        1


                110%- 120%                                6
                                                        I
                100%- 110’%                             1 19
                                                        I
                90 % - 100%                               29
                                                        I
                80 % -90%                               I 24
                lessthan80 %                                10
                Source: NMDP,
                            “RegistryStatistics,October1993”and
                         “Re~istrvStatistics.October1995”       Analvsisby OIG/OEI


          F	     For the 6 months ending September 30, 1995 donor centers’ success in
                 retaining donors for CTtesting rangedfiom 43 percent to 100 percent, with
                 a median of 80 percent.

          b	     Of 5,155 CT requests in that 6-month period, 1,279 (25 percent) donors did
                 not come forward for testing.


                                                   8

           k	    Twenty of 97 centers retained more than 90 percent of donors; 7 centers
                 retained less than 60 percent.

Table 4 presents data on retention at CT for requests resolved for the 6-month period
between April 1 and September 30, 1995. As with DR retention, the smaller donor
centers tended to have higher retention rates. Eleven of the 97 centers received more than
50 percent of the requests for CT tests and provided 50 percent of the donors that were
retained during this period.




~TENTION        RATES AMONG   DONORS FROM RACIAL AND ETHNIC MINORITY          GROUPS LAG
BEHIND THOSE FOR WI-HTES.


Although recruitment of minority donors has increased more rapidly than among white
donors in recent years, a lower proportion of donors from minority groups are coming
forward for followup testing than are whites.

       At first level followup testing (DR testing) retention rate for minorip donors
       improved to 66 percent for the year ending September 1995, up from 55 percent for
       the year ending September 1993. In comparison the retention rate among white
       donors grew j70m 71 percent to 76 percent.

       However, retention of minority donors at second level followup testing (n testing)
       declined to 60 percent for the year ending September 1995, down from 67percent
      for the year ending September 1993, while it fellfiom 83 to 81 percent among
       white donors.




                                              9

Table 5 presents data on retention rates specifically for minority donors at first level
followup (DR testing) and second level followup (CT testing).




   EthnicandRacialGroup              DR   Testing                      CTTesting
                            Ott 1, 1992-    Ott 1, 1994-   Ott 1, 1992-     Oct 1, 1994-
                            Sept30, 1993    Sept30, 1995   Sept30, 1993     Sept30, 1995
   White                    71 ‘%           76 %           83 %             81 %
   Hispanic                 56 %            63 %           70 %             62 %
   Black                    55 %            68 %           70 %             59 %
               Islander
   Asian/Pacific            47 %            62 %           59 %             51 %
   AmericanIndian/Alaska    71 %            74 %           69 %             76 %
   Native
   Totals:                  66 %            72 %           81 %             76 %
   Source: NMDPRegistryStatistics                                         Analysisby OIG/OEI


EVEN THOUGHTHE DECREASEIN DONORRETENTIONRATESAT CO~RMATORY
TESTINGIS SMALL,m STILL RAISESSOMECONCERNS.

The NMDPand donor centers have gained substantial experience over the past several
years. They have improved registration practices, increased donor education, adopted
new technologies for locating donors, and developed continuous process improvement
indicators. Consequently, we expected ongoing improvement in retention at all stages of
the process, but we found that this was not the case at the CT stage. Our review identified
three factors that may explain this trend:

   .   Luck of direct donor involvement and commitment at the earlier DR stage.

Donors may be less likely to feel a direct commitment at DR testing for two reasons.

First, increasing numbers of donors already have been DR-typed. Some donors have been

typed through an earlier patient-directed request. Other donors were DR-typed when they

first joined the registry. Special fimding has been earmarked to DR-type all new minority

donors, and some white donors, at registration. This “front end” typing may provide one

important explanation for the greater decrease in retention at CT testing for minority

donors.


Second, the NMDPhas recently established two central repositories. At initial registration,

the donor center draws an extra sample of each donor’s blood, which the NMDPstores in a

repository. The donor’s blood is not DR-typed at registration, but when one of these



                                                10
donors is identified as a potential match, the sample is withdrawn from the repository and
DR-tested.

Either situation obviates the need for the donor to physically go to the donor center at this
stage. Instead, the center contacts the individual by phone to gain formal permission and
to prepare the donor for the possibility that additional testing and donation are possible.
These donors give their verbal permission at that time.8 However, they do not need to
make a direct commitment in time, inconvenience, or additional blood donation until the
CT stage. The director of one donor center we spoke with characterized this difference as
“active” versus “passive” commitment.

  �    Potential conflict between a rapidly growing re~”stry and donor education.

The NMDP has experienced great success in increasing the size of the registry list. In an
effort to expand their lists, some centers may not be doing an effective job of fully
educating donors at initial recruitment about what will be required of them in the event of
a match. The director of one donor center summarized this concern when she told us
that, “If people are to come for later testing and donation, it depends on how well we do
our job selling at the front end. We need to emphasize timing and commitment at every
step. ”

Organizing registration drives is a major component of donor center work. These drives
frequently focus on an individual patient in need of a transplant. On our site visits we
asked donor centers “What makes a ‘good’ donor?” Donor centers told us that signs of a
good donor include someone who reads all available material, asks serious questions, and
takes time to reach a decision to join the registry. To help donors reach a decision, staff
at donor centers cited extensive patient education at initial registration as critical. Donor
centers told us that an important part of this educatioml process is ensuring that those who
join the registry understand that they are not joining just for a patient who is the focus of
a particular drive, but for anyone who may eventually need a transplant.

We also heard from some centers that college students are difficult to find at later stages,
because they move often in their early years out of school. Several centers, however, also
told us that college students were a primary target of their recruitment efforts.

   �   No awareness of problems in CT retention rate.

Some donor centers may fail to recognize the problems we identified in retaining donors
at CT. Even though donor retention is declining at this stage, donor centers responding to
our survey cited obstacles to retention less frequently at CT than they did at DR.

Our survey asked donor centers about obstacles to DR and CT testing. As Figure 2 shows,
with one exception (donor distance from center, where 11 percent cited it as a problem at
CT versus 8 percent at DR), obstacles at DR typing were cited by about twice as many
donor centers as they were at CT testing.



                                              11

                                              FIGURE 2





         Source: OIG/OEI survey of domestic donor centers, August, 1995         n= 88


We raise concerns about the consequences of thedeclining m retention rate for two
important reasons:

  .    Pa.ti”entexpectti”ons arehighti         CT.

When arequest for CT testing occurs, apatient awaiting atransplant knows tiata
potential donor match has been identified. This preliminary match no doubt raises the
hopes of the patient; failing to retain donors at this stage means that the patient’s hopes
for a transplant may have been raised unrealistically, only to be dashed because the
potential donor fails to come forward.

  .    Losing donors at CT is costly to patients awaiting a transpkmt.

The 55 NMDp-accredited transplant hospitals bill patients a mean charge of $264 (range =
$200-$600) for each patient-directed DR test that is performed on potential donors. If
those donors fail to come forward at CT, the patient still must pay for the DR testing that
was done.




                                                     12

                    RECOMMENDATIONS

The National Marrow Donor Program (NMDP)has come a long way since its inception
with a registry of 8,000 volunteer marrow donors in 1987. Today, almost 2 million
donors have joined the registry, and NMDPhas facilitated over 4,000 bone marrow
transplants between unrelated individuals. In this report we raise concerns about the level
of retention of volunteer donors on the registry list: Despite experience in recruitment
and education, improvements in technology, and the implementation of continuous process
improvement measures, the overall rate of donor retention has not improved.

We developed our recommendations to encourage improvement in donor retention. We
believe that improving this aspect of the program will require a partnership approach
between HRSAand NMDP,and between NMDPand its donor centers. Consequently, we
direct our recommendations to both HRSA,as contractor for the registry, and to NMDP,as
the holder of that contract.

THE HEALTH    RESOURCES    AND SERVICES ADMINISTRATION       SHOULD SPECIFY,     EITHER
UPON ISSUING THE FORTHCOMING         CONTRACT     OR THROUGH   A FUTURE MODIFICATION
OF THAT CONTRACI’,     THE OVERALL    RETENTION    RATE TO BE ACHIEVED     BY THE
REGISTRY.    To develop the appropriate retention rate, HRSAshould work with NMDPand
the donor centers to develop methods for improving overall retention and a plan to
implement these methods. The implementation plan should include a description of
actions to be taken should the registry or the donor centers fail to meet the target rates.
We urge mw to specify target retention rates within the first year of the new contract.
We also encourage HRSAto assure that these methods encourage retention of donors from
racial and ethnic minority groups.

The current HRSAcontract with NMDPspecifies goals for overall recruitment of donors and
minority donors, and for the number of transplants to be performed in each contract year.
However, the contract does not contain goals for donor retention, the key middle step in
that process. We urge that fiture contracts specify retention rates for both first attempts
and subsequent attempts to contact donors. We believe that HRSAcan draw on NMDP’S
expertise to develop minimum retention levels that can be realistically achieved.

TO THE EXTENT    THAT RESOURCES      ARE AVAILABLE,    THE HEALTH    RESOURCES    AND
SERVICES ADMINKWRATION,       WORKING    WITH THE NATIONAL      MARROW    DONOR
PROGRAM,     SHOULD SUPPORT DEMONSTRATION         PROJECTS THAT TEST ALTERNATIVE
STRATEGIES    FOR RETAINING   DONORS.     We urge that particular attention be paid to
demonstrations that seek to increase the retention rate among donors from racial and
ethnic minority groups, including efforts to overcome language barriers that may suppress
retention. We believe that any such demonstration projects should contain an evaluation
component to assess the feasibility of these strategies for broader use.

The NMDPhas increased substantially the number and proportion of minority donors on
the registry. Donors from these groups, however, show lower retention rates than do


                                             13
white donors. In addition, because an increased number of HLAcombinations occur
among minority groups, many minority patients face serious problems in fkding a
matching donor. These difficulties make strategies for improving retention rates among
minority donors a priority.

NMDPSHOULDWORKWITHDONORCENTERSTO DEVELOPANDIMPLEMENTMETHODS
FOR IMPROVING    DONOR RETENTION     AT BOTH THE FIRST ATTEMPT        AND SUBSEQUENT
ATTEMPTSTo CONTACT DONORS. we hope that imprOving retention among donors from
racial and ethnic minority groups will be a focus of these efforts. We encourage NMDP
also to put in place plans for evaluating the success of these methods and a strategy for
dissemimting successful methods to donor centers. We offer a number of options that the
NMDPmight use, but we also welcome additioml ideas from that organization on how to
achieve this goal. Possible options might include:

  �    Spec@ing a retention rate in its operating agreement with each donor center. The
       NMDPoperating agreement whh each donor center does not specify levels of
       achievement for retention at ehher DR typing or CT testing. Just as we urge HRSA
       to establish an overall goal for retention, we believe that defining minimum
       expectations would provide an incentive to the donor centers.

  �    Augmenting pe~ormance indicators to emphasize continuous improvement over
       time. The NMDPhas in place performance indicators for each donor center that
       address retention at DR and CT. Each center receives a monthly report on hs own
       performance on these indicators and a summary of the network’s overall
       performance. Including monthly trend information might better inform donor
       centers about their progress over time and encourage ongoing improvement.

  �    Enhancing donor education at initial recruitment. Educating donors at recruitment
       is the first step in the marrow donation process. This education should stress the
       importance of timing and commitment if the donor is called for further testing.

  �    Emphasizing to donor centers the need to jidly educate donors when contacting
       them for DR testing. In the future, an increasing proportion of donors on the
       registry will have their blood stored in the repository, or will have been DR typed
       already. This trend will exacerbate the problem of passive commitment identified
       in this report. Rather than merely obtaining a donor’s permission through a phone
       call, more complete education about commitment and expectations might alleviate
       this problem. The NMDPcould develop a script or checklist of points that donor
       centers should cover when contacting donors at request for DR typing.

   �    Working with HRSA to devise a strategy for improving publicity around the need for
        retention and donor maintenance, as well as continuing current eflorts on the need
       for recruiting donors. Much publicity, both local and national, has been given to
        encouraging people to join the NMDP. Joining the registry, however, is only one
        step in the process. Publicity that also emphasizes the importance of commitment
        for those who are actually called as potential donors could help improve retention.


                                             14
COMMENTS                              ON      THE       DRAFT          REPORT

We sought comments on the draft report from the Health Resources and Services
Administration (HRSA),the Assistant Secretary for Planning and Evaluation (ASPE),and
the Assistant Secretary for Health (ASH). In addition, HRSArequested and received
comments on the report from the National Marrow Donor Program (NMDP).

Use of   CT   and   DR   vs.   Overall Retention

The HRSAand NMDPquestion why we compared changes at first level followup (DR
typing) and second level conilrmatory (CT) testing, rather than at first attempt and
subsequent attempts to contact donors. our analysis used DR typing and CT testing
because the NMDPand donor centers use these terms. We continue to use that framework
in this final report. We agree with HRSAand NMDPthat it makes conceptual sense for the
program to move toward reporting data in terms of first attempt at donor contact and
subsequent attempts. Given developments in practice--e. g., most donors now are typed
initially at registration, blood samples are maintained in the NMDPrepository, and DNA
testing is becoming more common--this approach appears to be more appropriate.

One step that could further this reconceptualization about retention rates is for NMDPand
donor centers to use that terminology. For example, the NMDP’SCPI indicators continue
to describe events at DR and CT testing, and data are reported using that framework.
Nevertheless, we have changed our recommendations to encourage overall retention, at
both first and subsequent contact attempts. We are concerned, however, that merely
reclassifying how retention is described begs the larger and more critical issue that we
raised in our draft report and continue to raise in this version: Despite substantial
experience, which includes improved registration practices, increased donor education, use
of new technologies, and the development of continuous process improvement indicators,
the overall retention rate simply is not improving.

We are pleased to learn that NMDPhas begun to support research to understand why
donors elect not to participate when called for further testing. We hope that this research
will lead to better retention rates and improve the odds of finding a donor for
transplantation when needed.

Specification of retention rate

HRSAagrees with the substance of our recommendation that the contract should specify the
retentio-n rate to be achieved, but the agency raises concerns that implementing these
recommendations will take longer than we recommended in our draft report. (In that draft
report, we had proposed implementation prior to awarding a future contract for the
registry, which HRSAnotes should take place in the Spring of 1997.) We recognize that
these are complicated subject areas; however, we do not believe that a complicated issue
should give HRSAor NMDPlatitude to take any longer than necessary to achieve them.
Accordingly, we have changed our recommendation to specify the appropriate retention


                                                   15
rate through a contract modification, rather than prior to issuing the new contract. We
urge that these changes be implemented within the first year of the new contract. We
believe that such a time frame is adequate to achieve these changes.

We are concerned that an open-ended time frame could result in unnecessary delays. We
wish to state clearly that developing, implementing, and enforcing performance standards
and efficiency measures are important, and need to be accomplished as quickly as
possible.

Developing methods for improved retention

HRSAsupports this recommendation, but urges us to stress overall retention more than the
DR and CT rates. We have modified the recommendation to reflect this change. We also
urge the NMDPto pay attention to donors from racial and ethnic minority groups. We
encourage NMDPalso to put in place plans for evaluating the success of these methods, as
was suggested by HRSA.

Demonstration projects

HRSA   supports this recommendation. We added language to our recommendation about
fimncing demonstration projects to encourage demonstrations that pay attention to
overcoming language barriers, as recommended by the Assistant Secretary for Health.
We also urge the demonstrations to contain an evaluative component to assess the broader
feasibility of these demonstrations tested.

Other Comments

We have changed language in several places in the report as recommended by the Office
of the Assistant Secretary for Health. ASPEhad no comments on the report.




                                            16

                           APPENDIX                     A

      CHANGES             IN DONOR RETENTION                         RATES

                         Changes in DR Retention Rates

                      Years ending Sept 1995 vs. Sept 1993

                  DR         Unable to         Not          Medically   Temporarily
                  Requests   Contact           Interested   Deferred    Unavailable
October, 1994-    36,012     4,251             2,186        940         2,550
September, 1995              (11.8%)           (6.1%)       (2.6%)      (7.1%)
October, 1992-    38,891     6,519             2,321        834         3,436
September, 1993              (16.8%)           (6.0%)       (2.1%)      (8.8%)




                  CT          Unable to        Not          Medically   Temporarily
                  Requests    Contact          Interested   Deferred    Unavailable
October, 1994-    9,454       661              434          357         835
September, 1995               (7.0%)           (4.6%)       (3.8%)      (8.8%)
October, 1992-    6,901       278              248          227         578
September, 1993               (4.0%)           (3.6%)       (3.3%)      (8.4%)




                                          1

   TEXT OF COMMENTS                              ON THE DRAFT REPORT




Health Resources and Services Administration            . . . . . . . . . . . . . . . . . . . . . . . . B-2

Assistant Secretary for Heal& . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. B-6

National Marrow Donor Program             . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..   B-8




Note: The Health Resources and Services Administration, the Assistant Secretary for
Health, and the National Marrow Donor Program provide combined comments on four
draft reports that examined the National Marrow Donor program. This appendix includes
only those portions of their comments that are relevant to the report entitled “National
Marrow Donor Program: Effectiveness in Retaining Donors. ”




                                                 B-1

                                                                                   Heakb Resources and
                                                                                    Servicas Administration
                                             7CT n 3 ;%
                                                                                   Rockville MD 20857



 TO:             Inspector       General,       DHHS

 FROll:         Deputy       Administrator

 SUBJECT :	 Office    of Inspector    General    (OIG) Draft      Repo”rts,
            lfNat~On~~    Marrow Donor pro~arn       (NMDP) s
            1) Financing      Donor Centers     OE1-01-95-00123
            2) Progress      in Minority Recruitment 0EI-01-95-00120
            3) Geographic Overlap Among Donor Centers
                OEI-01-95-00122
            4) Effectiveness       in Retaining    Donors    0EI-01-95-00121ff                                “­


.~ttached is HRSA’S response                   to  your memorandum        requesting
comments on the four  subject                   draft   reports.

we appreciate        the OIG conducting           the review,         “Bone Marrow Program
Inspection.”         The    draft   reports     were    forwarded        to the NMDP for
comment.       Their     comments     have   been    incorporated           into    our

response.       HRSA    and    NMDP  will    be   performing        further        analysis      and

examination       regarding       some issues,       such    as   restructuring            of   donor

centers,      implementation        of performance         indicators!           and

specification        of retention       races,     before     specific         changes      are
made.       HRSA plans      to utilize the findings and recommendations
contained in these reports as an integral part of the development
of the contract.

Questions      may be referred           to Dsirdre Walsh
                                                        .
 on x35181.



                                              +%J
                                                           k
                                                      hn D. Maho , y
                                                ~


Attachment





                                                    B-2

 OIG   Reuort:     Effectiveness      in Retaininq        Donors   0EX-01-95-00121

 GENERAL     COMMENTS

 NMDP commented    that   the number of donors          who are DR typed       at
 enrollment  has increased.         The first    attempt      to COntaCt    donors   is
 more often at the confirmatory testing stage rather than at the
 DR stage. NMDP, therefore,          recommends      that   retention    needs    to be
 evaluated  based    on the ‘first      attempt”     and “subsequent      attempts”
 to contact  donors,    rather    than separating         DR and CT retention.

 OIG   RECOMMENDATION:

 HRSA should specify, in any future contract            fOr operating the
 regi.stry~ the retention        rate   to be achieved.  We urge that  future
 contracts  specify    retention      levels  at both the IIR and CT stages.
 NMDP should work with donor centers to develop methods for

 improving retention at CT testing.


HRSA RESPONSE


HRSA concurs with the recommendation that HRSA specify the
retention rate to be achieved, but does not concur that HRSA
should specify the retention rate in its next contract for
operating the registry.     There is insufficient time, prior to the
next contract award,    to develop a retention rate that is

realistic and operational.


A first step is for the contractor, in consultation with HRSA, to

develop target retention rates and methods for implementing them.

Establishing Continuous Process Improvement (CPI) indicators for

donor retention should include an adequate understanding of why

volunteers are not retained and effective methods for improving

retention.    NMDP recommends that retention needs to be evaluated

based on the ‘first attempt” and “subsequent attempts” t-o contact

donors, rather than separating DR and CT retention,   particularly
because donors   are increasingly DR typed at recruitment and
contact for CT may be the first attempt to contact donors for
follow-up testing.    Previously, donors were contacted first for
DR typing and subsequently for CT.


HRSA expects that       the next    contract      will    require    a report  on
effective    methods    of improving      retention       and a plan for
implementing     continuous    process      improvement       measures    for donor
retention.     The implementation plan will               include disciplinary
actions for donor centers and recruitment                   groups that do not meet

the CPI goals.





                                        B-3

 HRSA agrees   that  there   is an urgent need for a thorough analysis
 of donor retention.       As more donors are DR typed at recruitment,
 retention at CT reflects overall retention (DR and CT) . HRSA

 suggests the following modification:


       HRSA should        work with the contractor             and the donor           centers
       to develop       methods     for improving        overall      retention,        an
       implementation         plan,    and disciplinary          actions.         Methods      for
       improving      retention      should   take     into    account       retention       of
       minority     donors      as well    as cost     issues     associated         with
       donation.

This recommendation should precede the recommendation about

demonstration projects to emphasize the importance of overall

retention of donors at both the DR and CT stages.


OIG   RECOMMENDATION

To the extent that resources are available, HRSA, working with
the NMDP, should support demonstration projects that test
alternative strategies for retaining donors.  We urge that
particular attention be paid to demonstrations that seek to
increase the retention rate among donors from racial and ethnic
minority groups.

HRSA RESPONSE


HRSA agrees with this recommendation and specifically with the

recommendation that the approach to contacting donors for follow-

up testing be more standardized.   Evaluating alternative

strategies for retaining donors and facilitating transplants

should be a first step. Identifying centers that do a

particularly good job at retaining donors, particularly minority

donors, and noting the strategies used by them would provide

valuable insights.  HRSA supports the idea that HRSA work with

the NMDP to identify alternative strategies and evaluate their

feasibility for broader use.


OIG RECOMMENDATION:

The National     Marrow Donor Program   should                work    with donor       centers
to develop     methods  for improving retention                 at    confirmatory
testing.

HRSA RESPONSE


HRSA concurs with the recommendation, but agrees with NMDP that
the overall retention rate is more important than the DR and CT
rates given that  more donors are being A, B, and DR typed at
enrollment.   Therefore, tracking retention at the first attempt




                                              B-4

and subsequent   attempts to contact donors may be more   meaningful
than retention   at DR and CT.

The OIG Report suggested possible OptiOns for improving retention

at confirmatory testing. Some of these options, such as

specifying a retention rate in the oPeratin9 a9reement with each
center, require consideration and development.  In addition,
development of strategies to improve retention, including donor
education and publicity, is important but may not need to be
specified.


Additional strategies, directed at facilitating the transplant

prccess %y improving retention, may be even more important but

more difficult to develop.  Therefore, some IWntlOII of eValUatiIIq

as well as implementing strategies for maintaining contact   with
donors might be useful.




                         B-5

               DEPARTMENT     OF HEALTH    AND HUMAN    SERVICES                          Office of   the Secretary


              AuG 28 IW                                                           Assistant   Secretary     for Health
                                                                         Office    of Public Health       and Science
                                                                                       Washington         O.C. 20201
 TO:           hspector

                      General

 FROM:         Assistant Secretary for Heaith

 SUBJECT:      OIG Drafl Reports on the National Marrow Donor Program
                                           .


Thank you fortheopportunity   toreviewtheOffIce   oftheinspector   General’s Dratl Reports on
the National Marrow Donor Program. I am pleased that in generaI the reports show that much
progress has been made. However, the reports also showed that there are additional areas where
the ileparunent mustfocusits attention.Therecommendations     contained  inthese reports are
important andshouldbeimplemented    asquickly
 aspossible.

Attached  areseveral areas which 1 believeshouldbeaddressed    inthereports.  Thankyouforthe

opportunity to review these important reports. If you have any questions on the concerns raised,
please calI Mr. Matthew Murguia of the Office of Minority Health at 301-443-9923.



                                               /7Lf7J-c”L-
                                               PhiI1ip

                                                    K Lee,M.D.



Attachment





                                                B-6

                                     OIG DRAFT KEXVK1 S ON

                             THE NATIONAL MARROW DONOR PROGRAM




       �       REPORT:      Progress in Minority Recruitment

      ��	     TIWuse of the term “Caucmim” ~d “wtites” are interckgeably        used throughout the
              report. OIG may consider using the OMB Directive 15 classification for describing the
              various raciaf/ethnic groups, which are “white, black, AsiWacific Islahder, American
              Indian/Alaska Native. and Hispanic,”

     ��	      There should be some discussion as to why the HRSA contract does not speci& annual
              recruitment goais for Native Americans @age 6).

     ��	      There snouid be some discussion as to why whites constitute 83% of preliminary
              searches. but account for 91 ‘%o of transplants (Table 3. page 10).

     ��	      The discussion of mistrust by Asims on page 10 is contradicted by the discussion on page
              5 which indicates that Asians are over represented in the donor pool.

    ��       On page 11. is CUM.WIJ   competency training, including biiingu.ai capability, inciucied in
             the HRSA contract? If not, this avenue should be explored as a means to find bilingual
             staffi especially those knowledgeable about medical terms.

 ��	
             On page 1I. OIG should consider a recommendation which would require a pre-test with
             a sample of the target population of educational materials prior to their use.


�            REPORT:      Effectiveness in Retaining Donors

��          The use of the terms “Caucasian”’ and “whites” are interchangeably used throughout the
            report. OIG may consider using the OM~ Directive 15 classification for describing the
            various racia.i/ethnic groups, which are “white, biack. Asian/Pacific islander. American
            IndiadA1aska Native. and Hispanic.”

��           Figure 2. page 12. shows that 10- 17 percent of donor centers indicate that language
            bmiers present an obstacle to search and workup. However, this issue does not appear to
            be discussed. nor are any recommendations to address this area contained in the repott.
            Given [helarge    percentage of centers reporting this as a problem. and the stated fact that
            it is more dificuit to maintain minority  donors, an examination of this issue would be
            appropriate.




                                                 B-7

              Wtmnnl         Marrow
                                                       4, 1996
                                               September

               Donor        PrugriIrn

      TWloual Coonlinatinc Ccntur
         .MXI Brnadwuy SUCA N.E.
                          Suirc XX)
             Mjnnqdis.    ~   5541~
                       612-627-5LW
                     I-KIX)-5Zf+7N?J     I
                                              Judith Brasiow
                  FAX: 61>627.W9
                                         ,

                                         !	
                                              Director, Division of Organ Transplantation
                                         1
                                              Heaith Resources and Services Administration
                  bard    ofDilwdcm
                                         I
                                              Park Lawn Building
      Hcrbcn A. Perkinr.,M.D., Char           5600 FiSkS Ianc - Room 729
     Jmmdumk LeOlg, Vice CJunr
              clam Paclilh Andmvs
                                         !
                                              Rockviile, MD 20857
             Uichmd i+. Asler. M.D.
             ~ufcncc D. Atlm, J.11
                 Jn~h “f. BCJLM.D.            Dear Ms. Bradow:
            % DUPOIM M.D., D..?C.
             Rogcr   W. I?vnm. P?LD.
          f?an S. I+hcr. J.D.. Ph.D.          Thank you wry much for providing the National Marrow Donor
         Duvid B. F~hflm8ycr. J.I>.           Pmgra.m@ (NMDP) with an opportunity to review the draft reports of the
            J. Cunynn &rdmt. J.D.
              John A. lLUMII. M. Il.          Office of Inspector General (OIG), Depament of H~th and Human
+edcnck J. %um. M.. S.F-E-.M.B.A.             Services. ‘I”hedraft reports were sent to members of the Minority Af&irs,
  . ~J~    M Hnrn+w. M. D.. MS.
                 HR.     Ja!lt. M.D.
                                              Membership and Process Improverncnt, Donor Recruitment and Executive
             MWCyA       Kcman M.D.           Committees as well as the NMDP’s Network Evaluation Advisory Panel
             susan LcitmMn.MD.
~ichoks J. NeulMusci. J.D., M.S.M.
                                              and seiected members of the staff.
               %tcr 1- f%gc.M-U.
            Lmmtb A. (CAP) %rlier             The comments received have been colIared and a synthesis of the
        r=x   Pccluum. M. D.. ph.D-
                                              responses is presented bciow. The intent of the NMDP is not to criticize
     L[. GcrI. Fmk E. l%cmcn. Jr.
              Kobcrt K. RUSSM.D.              the ciratl reports,but rather to add information from a variety of

             EAV.trd P, %nt. M.D.
           Ihwd F. Stronc& Ml).
                                              respondents, ail of whom have been involvd with aspects of donor center
          J&m S. Thurnpson.M-O.               operations and/or donorrmuitrnent.      As you know theNMDP is WCU
          mm       w WMUS. M.D.               aiong in its own analysis of donor center functions, the findings of which
             SIenn N. WUIK. MD.
Antmnctte K Yxxe.Y. M. O., M.P.H.             should provide fiwtherusefulrecommendations.
        Admtmi E. It. Zum’wnh.~r.

      GWw’S.l+ow&O..
                   M. Ph.D.                   Following thesummaryofcommenlson eachdrafi       report
 we have .
         Chkflzzmutlvc Ofil’ef                provided our own iist of recommendations for modification of the OIG
                                              document.
               ~wim KmcritEa:
          R~rt C. Guvm. D.V.M.
         Admud E. R. Zumwdt. h.

            ~u~     Gmwx Awacd:
 ~c   Hnnnmoic U. W. ‘“13il~Ymmg
           John A. Hamcn M.D.
            (:kck bnfunL MD.

      A mlldmmuw         effofi of che

           4mcricnn Association
                  Uf JNIxn.1J3ankl

            Amm-icml Rd       CrO@

          ct)oncil� of Commnfuty
                    Blood CenUm

             With funding (rum
  HIxlth Rm_nmxs and SCfVICCS
             Admtmwntwn and
    Navai Mdcal    Rcxmh tmd
         Mwciup-ment Com~d
13Tectiveness    in Retaining   Donors
          A ~u.rring theme throughout the comments an this section was how retention should
          be dcflncd and q-1~.     ~    Conciwion of the dra~ report WaS tit the situation was
          improving for “DR retentiou” but deteriorating for ‘CI’ retention.’! In fact,
                                                                                      most

          donorscontacted
atm = ~~ng w~c~            for ~C fit*.       VCV fc~ DR typtigs
          lead to subsequent CT wing since DR ~ing             only ~=ly proties   a ma~h. Thus it is
          not .SU tising to scc ~~ tic ~~ ~d ~ m-non           ~     ~ ~nverg~     ~ 75 z ~ fi@.
          of the Tau that both represent the fmt attempt to contact a donor. An alternative would 3
          be to evaiuate retention on the basis of “first attempt” versus “subsequent attempts. ”

         There were reservations CKPrcssedabout.the establishment of continuous p-s
         improvement indicators for donor mention.  These reservations centered on two
         pnzmisca: 1) An -.~ti          -~ding         of why volunteen are not retaind; 2) An
         imprecision and over~p m @ ~~gofies (NI, T’lJ, etc.) used to describe donor status
         and a resultant concern LIULfacto= ove~ which donor centers have no control would be
         US~   to x-ate (mrnburse) them. To obrmn betrer information about the first premise,
         Galcn Swirzer, Ph.D. of the Umversuy of Pittsburgh is about to embark upon a study
         of the reasons mp        do~fi el=t not to p=icipate wkn mllti for tlrther testing.
         The repofi recommendation for a more standa.rdkd approach (“script or checklist of
         poims”) m contacting donors for follow+p testing was thought
                                                                    tobe berxficial.


         An appropriate caveat in mrnpfi~g the abili~ of donor een!ers to retain donors was
         that of donor ~nkr age. CO~arrsoII of retendon rates for ‘old” ccntxxs (many
         volunteers ttawng been -Iti      five or mom years ago) versus “young” c-      are
         inherently inequitable.

     Itwas weilreco@zed thatmany of the ideas for improving donor retention were fikely
     to mrne witha s@.&ant cost.It was agreed unanimously that an increased sensitivi~
     to donors and their concern on the part of donor center personnel was both desirabk
     and cost effedvc.

     Recommended        Modifications    to the DraR Report:

    �	         The improving DR retention and dctcrioradng CT retention is an artifact caused
               by the fact that Incm=hg proportions of quested donors have already been
               DR typed. we need tOcompare effectiveness at tit donor contact, whether for
               DR or CT.
    �	         Factors involved in donor retention are too complex for a simplistic comparison
               of retention rates. We a-    that there is an urgent need for a thorough anaiysis
               of this probIcm, whxch we have already begun.




                                          B-9

    We are ahe.ady embmked UPOncon~j~i?g tie effo~ be~ wi~ -se OIG ~               ~o~”      ~r
    own detailed evaluation of cafi to recm~t donqrs and remeve them for donation is well under
    way. The effects  of geo~aphlc overl~ ~ be~ ev~wti        by our NeWork Evaluation
    Advisory Panel and by several committees. Minority recmitmcnt approaches and donor
    retention are areasof high conum, being admti      by our Minor@ Affairs Comm.iti,     the
    Donor RecruitrmxX Comrnittt%, and theMembership and Process Improvement Committee.

    These are aJl high priority iterns for our Board of Directors, which w’Nbe reviewing these
    documents at its regular meeting in several weeks.

    We hope that you find these comments helufd.
                                            .    The NMDP thanks Youfor sharing these draft
    reports and looks foxward to a continuing collaboration in irnprovi~- all aspects of–donor
    center and remitment   group operations.




                                                       Herbert A. Perkins. M.D.
                                                       NMDP Board Chair




.




                                           B-10

                              APPENDIX                    C	


                                    ENDNOTES	



1. National Marrow Donor Program, The Living Gijl of Life.

2.	 Bone Marrow Transplants -A Book of Basics for Patients (reprtited by NYsEwET, mc.
with permission from BMTnewsletter), chapter 4, pp. 35-36.

3.42 U.S.C. $274k(b)(l)-(7)

4.	 Grant money from the Office of Naval Research pays for minority donors to undergo
initial HLA-DRtyping, which is a higher level of testing than most Caucasian donors would
initially undergo.

5. Ninety-five percent of new donor centers have blood samples sent to one of two NMDP
repositories. When a potential donor is contacted for DR typing, the donor’s blood can be
directly sent from the repository to a lab for testing. However, the donor must still be
contacted for consent.

6.	 In addition to the DR typing and additional confkrnatory testing, the donor center is
responsible for ongoing donor mamgement. This can be a lengthy process, involving
counseling, advocacy and other aspects of donor education.

7.	 The accuracy of this system is unclear. During our research, a donor center performed
a search using Tram Union for the two OEI interviewers. One OEI staff member, in his
mid-40s and residing in the same home for 8 years, appeared accurately in the system.

The second OE1 staff member, in her mid-20s, yielded much less reliable data. Using her
social security number, Trans Union listed the university from which she graduated 5
years earlier as her most current address, even though she had moved half a dozen times
since then. A second search using her last known address posted the true second-to-last
address but listed her as having an old telephone number and incorrect social security
number.

While we do not generalize from this sample of two cases, our experience raises an
important concern that NMDPand donor centers need to be aware of College students are
a prime recruiting target for NMDPdonor centers. Such people move frequently in their
years immediately following graduation, making them difficult to track down in response
to DR and CT requests. But our experience makes it questiomble if the software is up to
the task required.


                                            c-1
8. Most donor center staff with whom wemetinformed usthatthey phoned donors
whose blood was in the repository. They try to contact them just as they would donors
who have to go a blood center to have blood drawn for further testing. During our site
visits, however, we met with staff from one donor center that simply forwarded the
request to the repository, and tried to make contact with the donor only at the CT stage.




                                          c-2
